   Office of Inspector General
   Report of Audit


      RCRA ENFORCEMENT



Resource Conservation and Recovery Act
 Significant Non-Complier Enforcement




      Report No. E1DSD8-05-0036-9100110




                March 23,1999
Inspector General Division
 Conducting the Audit:       Northern Audit Division
                              Chicago, Illinois


Region Covered:              Region 5


Program Offices Involved:    Waste, Pesticides & Toxics Division
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            OFFICE OF THE INSPECTOR GENERAL
                                   NORTHERN DIVISION
                              77 WEST JACKSON BOULEVARD
                                  CHICAGO, IL 60604-3590

                                           March 23, 1999

MEMORANDUM

SUBJECT:       Audit Report No. E1DSD8-05-0036-9100110
               Resource Conservation and Recovery Act Programs
               Significant Non-Complier Enforcement


FROM:          Anthony C. Carrollo
               Divisional Inspector General for Audits
               Northern Division

TO:            David A. Ullrich
               Acting Regional Administrator
               Region 5

Attached is the final report on Region 5's and Illinois Environmental Protection Agency’s (IEPA)
identification and enforcement of significant non-compliers under the Resource Conservation and
Recovery Act. We found that, overall, Region 5 and IEPA were appropriately identifying and taking
enforcement actions against significant non-compliers. We also found that Region 5 and IEPA need
to improve the accuracy of Resource Conservation and Recovery Information System data.

This audit report contains findings that describe problems the Office of Inspector General has
identified and corrective actions the OIG recommends. As such, this audit report represents the
opinion of the OIG. Final determinations on matters in the report will be made by EPA managers in
accordance with established EPA audit resolution procedures. Accordingly, the findings contained
in this audit report do not necessarily represent the final EPA position and are not binding upon EPA
in any enforcement proceedings brought by EPA or the Department of Justice.

ACTION REQUIRED

In accordance with EPA Order 2750 you as the action official are required to provide us with a
written response to the audit report, including finalized corrective actions and milestone dates, within
90 days of the final audit report date. In responding to the draft report, your office provided draft
corrective actions, with milestone dates, for the recommendation. Once finalized, the action plan with
comply with our recommendations.

We have no objections to the further release of this report to the public.
We appreciate the cooperation you, your staff, and the IEPA staff provided during this review.
Should you or your staff have any questions, please contact Kimberly O’Lone, Audit Manager, at
312-886-3186.

Attachment




                                              2
                                                       Identification and Enforcement of
                                                       RCRA Significant Non-Compliers

                   EXECUTIVE SUMMARY

INTRODUCTION       The Office of Inspector General (OIG) performed an audit of Region
                   5's and Illinois Environmental Protection Agency’s (IEPA)
                   identification and enforcement of significant non-compliers under the
                   Resource Conservation and Recovery Act (RCRA). We selected this
                   audit because similar OIG reviews indicated that enforcement of
                   RCRA regulations in other states may not always be consistent with,
                   or as stringent as, Environmental Protection Agency (EPA)
                   enforcement. Region 5's and IEPA’s role is to ensure that facilities
                   are effectively managing hazardous waste. This management includes
                   reducing the toxicity and amount of hazardous waste generated to
                   minimize releases into the environment.

OBJECTIVES
                   The overall objective was to evaluate significant non-complier (SNC)
                   identification and enforcement at the state and regional level. The
                   specific objectives were:

                   1.     Did the classification of the violator and the related
                          enforcement action comply with the enforcement policy in
                          effect at the time?

                   2.     Was the classification correctly recorded in the Resource
                          Conservation and Recovery Information System (RCRIS)?

                   3.     Did EPA or the state ensure that the facility returned to
                          compliance, and was this adequately documented?

                   4.     If the enforcement was performed under the 1996 enforcement
                          policy, was the action timely?

RESULTS IN BRIEF
                   Overall, Region 5 and IEPA were appropriately identifying and taking
                   enforcement actions against SNCs. Specifically, Region 5 and IEPA
                   ensured that the: (1) violator classification and related enforcement
                   actions complied with policy, (2) SNC classification was usually
                   correctly recorded in RCRIS, and (3) facilities returned to compliance


                                      i
                                                                      Report No. 9100110
                                                       Identification and Enforcement of
                                                       RCRA Significant Non-Compliers

                 and that this was adequately documented. Enforcement actions were
                 not always timely, but in all but one case the delays were justifiable
                 under EPA’s Hazardous Waste Civil Enforcement Response Policy.
                 Also, as part of its annual enforcement activities, IEPA has taken the
                 initiative to visit facilities that are not fully regulated under RCRA.
                 IEPA checks how these facilities are handling their hazardous waste
                 through a procedure IEPA calls a compliance assistance survey.

                 Region 5 and IEPA need to improve the accuracy of RCRIS data
                 entry. Forty-two percent of the Region 5 files and thirty-six percent
                 of the IEPA files had some information that did not agree with the
                 database. RCRIS inaccuracies were due to: (1) inspectors not
                 submitting documents for entry, (2) documents being filed prior to
                 entry, and (3) human error. As a result, EPA and IEPA do not have
                 complete data for determining facilities’ compliance histories and each
                 agency’s enforcement activities.

                 RCRIS also did not accurately reflect IEPA’s compliance assistance
                 survey activities. RCRIS did not reflect: (1) letters to facilities stating
                 the deficiencies identified and (2) deficiencies corrected during the
                 surveys. Accurate information helps to show that IEPA is taking
                 additional measures to ensure that more facilities are taking the
                 appropriate steps to prevent hazardous waste releases. Also, to
                 measure the facilities’ willingness to comply, IEPA may want to
                 consider adding a timeframe for return to compliance in its letters for
                 compliance assistance activities.

RECOMMENDATION
                 We recommend that the Acting Regional Administrator, Region 5,
                 establish specific procedures for data entry to ensure adequate
                 controls over Regional and state RCRIS input.

SUGGESTED
IMPROVEMENTS     Although IEPA is not required to conduct compliance assistance
                 surveys, we suggest that the Director, IEPA, revise compliance
                 assistance survey procedures to assure that: (1) information is
                 accurately coded in RCRIS, (2) all deficiencies are entered, and (3)
                 letters to facilities include timeframes for corrective action.



                                     ii
                                                                        Report No. 9100110
                                                     Identification and Enforcement of
                                                     RCRA Significant Non-Compliers

AGENCY ACTIONS
                 In responding (Appendix 1) to our draft report, the Acting Regional
                 Administrator, Region 5, acknowledged that continuous improvement
                 is essential in carrying out established procedures for data entry to
                 ensure adequate controls over Regional and state RCRIS input. The
                 Acting Regional Administrator provided a draft fiscal year 1999
                 Action Plan which includes milestone dates for RCRIS activities.

STATE ACTIONS
                 In response (Appendix 2) to our suggested improvements, IEPA has
                 revised its compliance assistance survey procedures to ensure: (1)
                 activities are more accurately reflected in RCRIS, (2) all deficiencies
                 are entered in RCRIS, and (3) facilities are provided with a timeframe
                 for returning to compliance.

OIG EVALUATION
                 Region 5's Action Plan, when finalized and implemented, will address
                 the recommendation in this report. IEPA’s actions address the
                 suggested improvements in this report.




                                   iii
                                                                     Report No. 9100110
                                                                                       Identification and Enforcement of
                                                                                       RCRA Significant Non-Compliers

                                                Table of Contents

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

2        SNCs PROPERLY IDENTIFIED AND ENFORCED AGAINST . . . . . . . . . . . . . . . . . 3
               Classification and Enforcement Complied with Policy . . . . . . . . . . . . . . . . . . . . . 3
               SNC Classification Correctly Recorded . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
               Ensured and Documented Return to Compliance . . . . . . . . . . . . . . . . . . . . . . . . 5
               Enforcement Action Not Always Timely . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

3        OTHER MATTERS: RCRIS DATA INACCURATE . . . . . . . . . . . . . . . . . . . . . . . . . . 8
              RCRIS Data Inaccurate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                     Region 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                     IEPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
              Compliance Assistance Survey Data Not Accurate in RCRIS . . . . . . . . . . . . . . 11
                     Surveys Encourage Proper Waste Handling . . . . . . . . . . . . . . . . . . . . . . 11
                     RCRIS Code Needed For Survey Actions . . . . . . . . . . . . . . . . . . . . . . . 12
                     Corrected Deficiencies Not Recorded . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                     Letters Should Include Timeframe . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
              Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
              Suggested Improvements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
              Agency Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
              State Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
              OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

EXHIBIT

         Scope, Methodology, and Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



                                                                iv
                                                                                                            Report No. 9100110
                                                                                      Identification and Enforcement of
                                                                                      RCRA Significant Non-Compliers

APPENDICES

1   Region 5 Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

2   IEPA Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

3   Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34




                                                              v
                                                                                                           Report No. 9100110
                                                          Identification and Enforcement of
                                                          RCRA Significant Non-Compliers


                                ABBREVIATIONS

EPA      U. S. Environmental Protection Agency

IEPA     Illinois Environmental Protection Agency

OECA     Office of Enforcement and Compliance Assurance

OIG      Office of Inspector General

Policy   Hazardous Waste Civil Enforcement Response Policy

RCRA     Resource Conservation and Recovery Act

RCRIS    Resource Conservation and Recovery Information System

SNC      Significant Non-Complier




                                        vi
                                                                         Report No. 9100110
                                                 Identification and Enforcement of
                                                 RCRA Significant Non-Compliers

                      CHAPTER 1
                      Introduction

PURPOSE      The Office of Inspector General (OIG) performed an audit of
             significant non-complier (SNC) identification and enforcement under
             the Resource Conservation and Recovery Act (RCRA). We selected
             this area for review because similar OIG reviews in Regions 1, 3, and
             10 indicated that state enforcement of RCRA regulations may not
             always be consistent with, or as stringent as, U. S. Environmental
             Protection Agency (EPA) enforcement. Our overall objective was to
             evaluate SNC identification and enforcement at the state and regional
             level. The specific objectives were to answer the questions:

             1.     Did the classification of the violator and the related
                    enforcement action comply with the enforcement policy in
                    effect at the time?

             2.     Was the classification correctly recorded in the Resource
                    Conservation and Recovery Information System (RCRIS)?

             3.     Did EPA or the state ensure that the facility returned to
                    compliance, and was it adequately documented?

             4.     If the enforcement was performed under the 1996 enforcement
                    policy, was the action timely?

BACKGROUND
             Congress enacted RCRA Subtitle C in 1976 to establish a framework
             for managing hazardous waste; waste that is capable of harming
             human health or the environment. RCRA mandated that EPA develop
             a comprehensive set of regulations for hazardous waste generators,
             transporters, and treatment, storage, and disposal facilities.

             EPA’s current Hazardous Waste Civil Enforcement Response Policy
             (Policy), effective April 15, 1996, establishes two types of violators
             under RCRA: SNCs and Secondary Violators. A facility that is found
             to be in violation but does not meet the SNC definition is a Secondary
             Violator. SNCs are:


                               1
                                                                Report No. 9100110
                                                   Identification and Enforcement of
                                                   RCRA Significant Non-Compliers

                     those facilities which have caused actual
                     exposure or a substantial likelihood of
                     exposure to hazardous waste or hazardous
                     waste constituents; are chronic or recalcitrant
                     violators; or deviate substantially from the
                     terms of a permit, order, agreement or from
                     RCRA statutory or regulatory requirements.

              States play a crucial role in implementing the hazardous waste
              program. One aspect of implementation is monitoring facilities to
              verify that they comply with regulatory requirements. The primary
              method of monitoring is through an inspection. Inspections of
              hazardous waste facilities may include formally visiting the handler,
              reviewing records, taking samples, and observing operations.

              States also have the authority to assist some facilities, such as small
              businesses, in complying with regulations. Facilities that generate less
              than 100 kilograms per month of hazardous waste and less than 1
              kilogram per month of acutely hazardous waste are conditionally
              exempt from full regulation under Subtitle C. Small quantity
              generators which generate between 100 and 1000 kilograms of
              hazardous waste per month are also exempt from full regulation.
              IEPA primarily uses compliance assistance to ensure these facilities
              are operating in accordance with the regulations.

SCOPE AND
METHODOLOGY   We performed our audit in accordance with the U.S. General
              Accounting Office’s Government Auditing Standards, 1994 Revision,
              issued by the Comptroller General of the United States, and included
              such tests as we saw necessary to complete the objectives.

              For further details on the audit scope, methodology, and prior audit
              coverage, see exhibit 1.




                                 2
                                                                  Report No. 9100110
                                                         Identification and Enforcement of
                                                         RCRA Significant Non-Compliers

                          CHAPTER 2
                     SNCs Properly Identified
                      and Enforced Against

                     Region 5 and IEPA generally identified and took appropriate
                     enforcement actions against SNCs, for the cases we reviewed.
                     Overall, (1) violator classification and related enforcement actions
                     complied with the Policy, (2) classifications were correctly recorded
                     in RCRIS, and (3) return to compliance was ensured and adequately
                     documented. Also, the enforcement actions were not always timely,
                     but in all but one case the delays were justifiable under the Policy.

CLASSIFICATION AND
ENFORCEMENT          Region 5 and IEPA correctly classified violators and took
COMPLIED WITH        appropriate enforcement actions for most of the cases in our
POLICY               sample. These actions ensured that facilities were complying with
(OBJECTIVE 1)        RCRA requirements. For example, as a result of IEPA’s enforcement
                     actions, unknown waste was tested to determine if it was hazardous.
                     The waste could then be properly handled to minimize releases into
                     the environment.

                     The 1987 and 1996 Policies explain the requirements for identifying
                     and providing appropriate enforcement of SNCs. Each Policy defines
                     classes of violators and prescribes the minimally acceptable
                     enforcement action. The 1996 Policy contains two classes of
                     violators: secondary violators and SNCs. The Policy calls for an
                     informal enforcement action, at a minimum, for a secondary violator.
                     An informal enforcement response recites the violations and includes
                     a schedule for returning the facility to full compliance. The Policy
                     calls for a formal enforcement response for an SNC. A formal
                     response mandates compliance and seeks injunctive relief to ensure
                     that the facility will promptly return to full compliance. Economic
                     sanctions, such as penalties, should be incorporated into the formal
                     enforcement response, as appropriate.

                     Region 5 and IEPA properly classified the violators and took
                     enforcement action in accordance with the Policy for all but one case.
                     See table 1.

                                       3
                                                                        Report No. 9100110
                                                          Identification and Enforcement of
                                                          RCRA Significant Non-Compliers

                                   Table 1: Proper Classification
                                            and Enforcement

                                                        Region 5      IEPA
                      Properly Classified                   12          27
                      Proper Enforcement Action             12          26

                     For the 12 Region 5 cases reviewed, the Region properly classified
                     and took related enforcement actions that complied with the Policy in
                     effect at the time. For IEPA, 26 of the 27 cases complied with the
                     Policy in effect at the time. While the classification was correct, IEPA
                     did not take a formal enforcement action for the remaining case
                     because it involved a paperwork violation that did not threaten human
                     health or the environment, and the facility was closing.

SNC CLASSIFICATION
CORRECTLY            Region 5 and IEPA usually recorded the proper classification in
RECORDED             RCRIS when the facility was an SNC. EPA requires SNCs to be
(OBJECTIVE 2)        recorded in RCRIS. EPA uses RCRIS to:

                       •    obtain the data it needs to manage and track the RCRA
                            enforcement program, and

                       •    review and track the program’s progress toward the
                            Government Performance and Results Act goals.

                     Therefore, if SNCs are not properly designated in RCRIS, it could
                     lead to erroneous conclusions of RCRA enforcement
                     accomplishments.

                     Seven of the twelve Region 5 cases reviewed were SNCs. Four of the
                     seven cases were correctly designated as SNCs in RCRIS. One case
                     was not entered into RCRIS as required. The other two cases were
                     recently classified as SNCs, so the RCRIS entries had not been made
                     prior to our review. Subsequent to our fieldwork, Region 5 entered
                     all three SNC designations into RCRIS.



                                        4
                                                                          Report No. 9100110
                                                               Identification and Enforcement of
                                                               RCRA Significant Non-Compliers

                           For IEPA, 3 of the 27 inspection cases reviewed should have been
                           recorded as SNCs in RCRIS. While IEPA began to use the new
                           RCRIS code for SNCs as soon at it was available, RCRIS did not
                           reflect IEPA’s SNC determination for one of the three cases. IEPA
                           officials corrected this during our review.

ENSURED AND
DOCUMENTED RETURN Region 5 and IEPA ensured and adequately documented return to
TO COMPLIANCE     compliance for all except two of the facilities that are now
(OBJECTIVE 3)     complying with regulations. See table 2. Bringing facilities back into
                  compliance is needed for the program to effectively reduce risks to
                  human health and the environment. The Policy provides guidelines
                  designed to promptly return facilities to compliance with all applicable
                  RCRA requirements. To document the return to compliance, both
                  Region 5 and IEPA issue letters to the facilities.

                                         Table 2: Verified and Documented
                                                  Return to Compliance

                                                                     Region 5      IEPA
                            Cases Returned to Compliance                 4           22
                            Return to Compliance Verified                4           21
                            Return to Compliance Documented              4           20

                           For Region 5, 4 of the 12 cases reviewed had returned to compliance,
                           and Region 5 verified and documented the return to compliance with
                           a letter to the facility.

                           For IEPA, 22 of the 27 inspection cases reviewed indicated that the
                           facility had returned to compliance. IEPA verified return to
                           compliance for 21 cases. For the remaining case, there was no
                           evidence that the facility had returned to compliance. IEPA officials
                           were following up on this case by requiring the collection of soil
                           samples. IEPA adequately documented return to compliance by
                           issuing letters for 20 of the 21 cases. One return to compliance letter
                           had not been issued since a settlement was being negotiated with the
                           Attorney General’s office.

                                              5
                                                                                Report No. 9100110
                                                                Identification and Enforcement of
                                                                RCRA Significant Non-Compliers

ENFORCEMENT
ACTION NOT ALWAYS Region 5 and IEPA did not always take formal enforcement
TIMELY            actions within the established timeframes. When delays occurred,
(OBJECTIVE 4)     however, all but one were justifiable under the Policy. The Policy
                  establishes a timeframe for taking formal enforcement action.
                  Untimely enforcement actions create the potential for the violations to
                  continue to pose a threat to human health and the environment and do
                  not deter future non-compliance.

                           The Policy: (1) states that regions and states should meet, to the
                           extent possible, the standard enforcement response times;
                           (2) provides for an annual 20 percent exceedence for cases that
                           involved unique factors; and (3) identifies circumstances that might
                           prevent an agency from meeting the response times, such as: potential
                           criminal conduct, cases involving two or more media, or additional
                           sampling or information requests.

                           Seven of the twelve Region 5 cases reviewed involved formal
                           enforcement actions. In one of those seven, Region 5 took a formal
                           enforcement action within the timeframe established in the Policy.
                           One case was 17 days late, which we did not consider to be
                           significant. For the five remaining cases, delays were justifiable under
                           the Policy.

                             •    Region 5 management decided to try a new approach, which
                                  required revising the documents for two cases to make them
                                  stronger. A novel defense is one factor that might result in
                                  exceeding the response time established in the Policy.

                             •    Two other cases were multi-media, involving more than just
                                  RCRA violations, and it took longer to get concurrence from
                                  all EPA programs involved. The Policy states that cases
                                  involving two or more media may exceed the standard
                                  response times.

                             •    One case was delayed because it raised complex questions,
                                  and Region 5 had to make additional information requests.
                                  The Policy recognizes such requests may prevent the
                                  implementing agency from meeting the response time.


                                              6
                                                                               Report No. 9100110
                                                 Identification and Enforcement of
                                                 RCRA Significant Non-Compliers


             For IEPA, formal enforcement action was taken for 3 of the 27
             inspection cases. Two of these actions were taken within the
             timeframe established in the Policy. The third case involved criminal
             conduct, which is recognized in the Policy as requiring additional time
             for an enforcement action.

CONCLUSION
             Region 5 and IEPA generally identified and performed appropriate
             enforcement against significant non-compliers, thereby effectively
             reducing risks to human health and the environment. Region 5 and
             IEPA need to continue to ensure that the: (1) violator classification
             and related enforcement actions comply with policy, (2) SNC
             classification is correctly recorded in RCRIS, (3) return to compliance
             is achieved and adequately documented, and (4) enforcement action
             is taken timely.




                                7
                                                                 Report No. 9100110
                                                  Identification and Enforcement of
                                                  RCRA Significant Non-Compliers

                  CHAPTER 3
                 Other Matters:
              RCRIS Data Inaccurate

             Although Region 5 and IEPA were generally meeting our audit
             objectives, we found some other areas that could use improvement.
             Region 5 and IEPA could improve the completeness and accuracy of
             the hazardous waste database, RCRIS. Forty-two percent of the
             Region 5 files and thirty-six percent of the IEPA files reviewed had
             some information that did not agree with the database. RCRIS
             inaccuracies were the result of: (1) documents not being submitted
             for entry, (2) documents being filed prior to entry, and (3) human
             error. Data problems result in Region 5, IEPA, and the Office of
             Enforcement and Compliance Assurance (OECA) having inaccurate
             information on facilities’ compliance histories and each agency’s
             enforcement activities. Data problems also result in the public having
             access to inaccurate information.

             Through compliance assistance surveys, IEPA is encouraging proper
             waste handling and bringing more facilities into compliance than
             RCRA requires. However, to provide an accurate picture of the
             State’s enforcement activities, IEPA needs to ensure that RCRIS
             reflects: (1) actions taken because of the surveys and (2) corrected
             deficiencies. IEPA should also consider adding a timeframe for action
             to its letters to facilities.

RCRIS DATA
INACCURATE   Region 5's and IEPA’s RCRIS data were not always accurate. RCRIS
             did not include some information on such things as: inspections,
             violations, or facilities’ corrections of violations. RCRIS needs to
             accurately reflect all enforcement activities to ensure that EPA and the
             states have the information they need to take appropriate future
             enforcement actions. Accurate information is also essential for the
             public to make informed environmental decisions and for businesses
             to improve environmental management practices.

             The RCRIS database includes information on hazardous waste
             generators; transporters; and treatment, storage, and disposal facilities

                                8
                                                                  Report No. 9100110
                                                Identification and Enforcement of
                                                RCRA Significant Non-Compliers

           regulated under RCRA Subtitle C. RCRIS is used interactively at the
           state and regional level with monthly updates to the National
           Oversight database. The national database contains those data
           elements which states, EPA regions, and EPA headquarters have
           determined to be necessary for RCRA oversight from a national
           perspective.

           Inaccurate RCRIS data were due to documents not being submitted
           for entry, documents being filed prior to entry, and human error. For
           example:

             •    A follow-up compliance assistance survey performed in
                  September 1997 was not reflected in RCRIS. As a result of
                  our work, the State’s regional inspector submitted the
                  document to the Springfield office for entry.

             •    Documentation regarding an inspection and the related
                  violations was on file, but not in RCRIS.

             •    A return to compliance date was incorrectly entered as the
                  date the violation was identified.

           If data are missing or inaccurate, Region 5, IEPA, and OECA can not,
           for example, properly determine a facility’s compliance status or get
           an accurate picture of a facility’s violation history. Inaccurate RCRIS
           information could impact future enforcement. If RCRIS does not
           reflect that a violation is a repeat violation, IEPA may mistakenly take
           an informal enforcement action when a formal action may have been
           more appropriate.

Region 5   Some information in 42 percent (5 of 12) of the Region 5 files
           reviewed did not agree with RCRIS. For example:

             •    A document, dated February 19, 1998, indicated that no
                  RCRA violations were found during a multi-media inspection
                  at a facility. However, a September 1998 RCRIS printout
                  indicated that RCRA violations were still pending.

             •    An enforcement action requesting information was not
                  entered.

                              9
                                                                Report No. 9100110
                                                                                   Identification and Enforcement of
                                                                                   RCRA Significant Non-Compliers


                                         •      A September 1998 RCRIS printout showed an incorrect date
                                                for a final compliance order.

                                      Region 5 started correcting the inaccuracies we identified while our
                                      fieldwork was on-going. Region 5 subsequently corrected all five
                                      discrepancies.

IEPA                                  Some information in 36 percent (18 of 50) of the IEPA files reviewed
                                      disagreed with RCRIS data. For example, IEPA did not enter:

                                         •      return to compliance dates for eight facilities. Thus, although
                                                these facilities were now complying with RCRA, the database
                                                showed them as out of compliance.

                                         •      follow-up inspections at two facilities, so the database did not
                                                show that these facilities had corrected the problems.

                                         •      an inspection and the related violations, thereby under-
                                                representing the work IEPA did and making the data
                                                incomplete.

                                      IEPA started correcting the inaccuracies we identified while our
                                      fieldwork was on-going. Of the 18 facilities where some RCRIS
                                      information did not agree with the files, IEPA corrected 14 during our
                                      fieldwork and one was pending. We noted discrepancies but did not
                                      suggest corrections be made for the remaining three cases due to
                                      specialized circumstances.1

COMPLIANCE
ASSISTANCE SURVEY RCRIS did not accurately reflect IEPA’s compliance assistance
DATA NOT ACCURATE survey activities. IEPA uses compliance assistance surveys to
IN RCRIS          bring facilities that are not fully regulated under Subtitle C into
                  compliance. However, RCRIS did not reflect: (1) letters to facilities

         1
             One case was one of the first compliance assistance surveys IEPA entered into RCRIS and did not include the
deficiencies identified. Since performing and recording surveys was new, Region 5 and IEPA had not decided how to record
deficiencies. One case was entered as a compliance assistance survey follow-up when the return to compliance was actually
based on a record review. The last case showed a non-financial record review on the same date the significant non-complier
determination was made, but there was no supporting documentation for the review or the determination on file.

                                                             10
                                                                                                      Report No. 9100110
                                                             Identification and Enforcement of
                                                             RCRA Significant Non-Compliers

                        stating the deficiencies identified and (2) deficiencies corrected during
                        the surveys. As a result of our work, Region 5 and IEPA officials
                        established a new RCRIS code that will more accurately reflect
                        IEPA’s actions for compliance assistance surveys.

Surveys Encourage       IEPA is helping facilities that are not fully regulated effectively
Proper Waste Handling   manage hazardous waste. This includes reducing the toxicity and
                        amount of hazardous waste generated to minimize releases into the
                        environment. IEPA focuses compliance assistance surveys on small
                        businesses, such as small or conditionally exempt generators, that have
                        not previously been inspected since they are not fully regulated under
                        RCRA. For example, IEPA performed compliance assistance surveys
                        at a dry cleaner, automotive repair shop, machine shop, and rock
                        quarry. The surveys focus primarily on waste handling procedures
                        with some emphasis on pollution prevention, recycling, and waste
                        minimization. IEPA’s goal is to make more businesses aware of
                        hazardous waste regulations and help them achieve compliance
                        without the use of penalties or enforcement. Also, IEPA discontinues
                        a compliance assistance survey and formally inspects those facilities
                        where a substantial and imminent danger to public health or the
                        environment is identified.

                        For fiscal year 1997, IEPA performed compliance assistance surveys
                        at 1,868 facilities. Of the total, 1,696, or 91 percent, either: (1) were
                        in compliance before IEPA’s visit, (2) returned to compliance during
                        the visit, or (3) returned to compliance after the visit. See chart 1.
                        IEPA plans to conduct follow-up surveys and additional compliance
                        assistance surveys at the remaining 172 sites that are still in non-
                        compliance.




                                          11
                                                                             Report No. 9100110
                                                              Identification and Enforcement of
                                                              RCRA Significant Non-Compliers

                                                         Chart 1:




                         IEPA has procedures for recording any problems noted during
                         compliance assistance surveys and for issuing letters to the facilities.
                         IEPA has revised its procedures due to internal issues as well as issues
                         we identified.

RCRIS Code Needed        OIG, Region 5, and IEPA officials agreed that a RCRIS code
For Survey Actions       identifying an action that is less than informal enforcement would be
                         more reflective of IEPA’s actual actions for compliance assistance
                         surveys. Because IEPA is monitoring facilities that are not fully
                         regulated, IEPA views the problems identified as deficiencies, not
                         violations. The state records the compliance assistance survey and
                         any deficiencies in RCRIS. It then issues letters to the facilities which
                         indicate any concerns noted and recommended corrective actions.
                         However, it did not record these letters in RCRIS. Since the goal of
                         compliance assistance is to achieve compliance without the threat of
                         enforcement, IEPA did not want RCRIS to reflect the letter as an
                         informal enforcement action. However, not recording the action in
                         RCRIS left the database incomplete. Based on our work, Region 5
                         and IEPA established a code, effective December 18, 1998, to reflect
                         actions taken for compliance assistance surveys.

Corrected Deficiencies   IEPA does not record deficiencies corrected during compliance
Not Recorded             assistance surveys in RCRIS. This is because IEPA uses the date of
                         the return to compliance letter, rather than the actual return to
                         compliance date, to reflect a facility’s actions. As a result, Region 5,


                                           12
                                                                              Report No. 9100110
                                                           Identification and Enforcement of
                                                           RCRA Significant Non-Compliers

                    IEPA, and OECA can not get an accurate history of compliance for
                    a facility. If a facility is cited for additional problems in the future, the
                    history of violations is important for determining the appropriate
                    actions to take.

Letters Should      For the 23 IEPA compliance assistance surveys reviewed, only
Include Timeframe   4 included a return to compliance timeframe in the letter sent to the
                    facility. Because these facilities are not fully regulated under Subtitle
                    C, timeframes are not required. However, IEPA may want to
                    consider including a timeframe as a way to measure facilities’
                    willingness to timely return to compliance.

                    IEPA ensured 15 of the 23 facilities corrected problems and sent them
                    return to compliance letters. One facility had not returned to
                    compliance and IEPA had not verified corrections at the other seven
                    facilities. IEPA committed to follow-up on the status for the
                    remaining 172 compliance assistance surveys conducted in fiscal year
                    1997. This follow-up will show facilities that IEPA is committed to
                    the compliance assistance approach and that facilities need to address
                    the problems identified.

CONCLUSION
                    Region 5 and IEPA need to improve the accuracy of RCRIS data
                    entry. Accurate data are essential for determining a facility’s
                    compliance history and each agency’s enforcement activities. This
                    helps to ensure that Region 5 and IEPA are taking appropriate and
                    timely actions to prevent the release of hazardous waste into the
                    environment. Entry of compliance assistance survey data also helps
                    to show that IEPA is taking additional measures to ensure that more
                    facilities are taking the appropriate steps to prevent hazardous waste
                    releases. Accurate data are also essential for the public’s right-to-
                    know, so that citizens and communities can make informed
                    environmental decisions and businesses will have an incentive for
                    improving environmental management.

RECOMMENDATION
                    We recommend that the Acting Regional Administrator, Region 5,
                    establish specific procedures for data entry to ensure adequate
                    controls over Regional and state RCRIS input.

                                       13
                                                                            Report No. 9100110
                                                     Identification and Enforcement of
                                                     RCRA Significant Non-Compliers

SUGGESTED
IMPROVEMENTS     Because IEPA is not required to conduct compliance assistance
                 surveys, we are not making formal recommendations. However, we
                 suggest that the Director, IEPA, revise compliance assistance survey
                 procedures to ensure that: (1) information is accurately coded in
                 RCRIS, (2) all deficiencies are input, and (3) letters to facilities
                 include timeframes for corrective action.

AGENCY ACTIONS
                 In responding to our draft report, the Acting Regional Administrator,
                 Region 5, acknowledged that continuous improvement is essential in
                 carrying out established procedures for data entry to ensure adequate
                 controls over Regional and state RCRIS input. The Acting Regional
                 Administrator provided a draft fiscal year 1999 Action Plan which
                 includes milestone dates for RCRIS activities. For example, Region
                 5 is enhancing the accuracy of RCRIS data through a one-time review
                 of event records.

STATE ACTIONS
                 In response to our suggested improvements, IEPA has revised its
                 compliance assistance survey procedures to ensure: (1) activities are
                 more accurately reflected in RCRIS, (2) all deficiencies are entered in
                 RCRIS, and (3) facilities are provided with a timeframe for returning
                 to compliance.

OIG EVALUATION
                 Region 5's Action Plan, when finalized and implemented, will address
                 the recommendation in this report. IEPA’s actions address the
                 suggested improvements in this report.




                                   14
                                                                     Report No. 9100110
                                                    Identification and Enforcement of
                                                    RCRA Significant Non-Compliers

                                                                          Exhibit 1
                                                                         Page 1 of 3


       Scope, Methodology, and Prior Audit Coverage

SCOPE AND
METHODOLOGY     Our audit focused on IEPA’s and Region 5's RCRA programs. We
                performed our fieldwork from July 9, 1998 to December 29, 1998.

                We selected IEPA for review based on: (1) RCRIS and Biennial
                Reporting System data, (2) Headquarters Office of Enforcement and
                Compliance Assurance information on SNCs identified in Region 5
                from 1993 through 1998, (3) sample inspection reports, (4) Region 5
                input, and (5) the centralization of IEPA files. RCRIS tracks Subtitle
                C facility-specific data related to hazardous waste generators,
                transporters, and treatment, storage, and disposal facilities. The
                Biennial Reporting System tracks large quantity generators’ and
                treatment, storage, and disposal facilities’ hazardous waste activity
                reports. Although we used data from the RCRIS and Biennial
                Reporting systems, we did not evaluate the adequacy of the controls
                over the systems.

                To accomplish our objectives, we reviewed applicable policies and
                guidance and interviewed IEPA and Region 5 officials. We used the
                following EPA guidance as criteria to evaluate enforcement activities:

                •      Enforcement Response Policy, December, 1987.

                •      Hazardous Waste Civil Enforcement Response Policy, March
                       15, 1996.

                To evaluate enforcement activities for IEPA and Region 5, we
                randomly selected 10 percent, or 51 facilities, from a RCRIS list of
                512 IEPA facilities where violations were identified during calendar
                years 1995, 1996, or 1997. Because IEPA and Region 5 both
                inspected some facilities, file reviews focused on the agency that
                performed the most recent enforcement activity at a facility.

                                                                           Exhibit 1

                                  15
                                                                   Report No. 9100110
                                                                                   Identification and Enforcement of
                                                                                   RCRA Significant Non-Compliers

                                                                                                              Page 2 of 3

                                      The sample consisted of 48 facilities IEPA monitored and three
                                      facilities Region 5 monitored.

                                      Our final sample of IEPA cases consisted of 50 (48+3-1) facilities. In
                                      addition to the 48 facilities we selected randomly, we judgementally
                                      selected three additional facilities from an SNC list generated from the
                                      State’s internal tracking system. We did this to ensure that we
                                      reviewed some facilities that IEPA identified as SNCs. We deleted
                                      one case from our sample because the facility, selected from IEPA’s
                                      list, violated only state regulations. Of our final sample of 50, IEPA
                                      inspected 27 facilities and our conclusions are discussed in Chapter 2.
                                      IEPA performed compliance assistance activities at the remaining 23
                                      facilities and our findings are discussed in Chapter 3.

                                      Our final sample of Region 5 cases consisted of 12 (3+12-3) facilities.
                                      In addition to our original random sample of 3 facilities, we randomly
                                      selected 12 facilities from 31 facilities listed in the RCRIS printout
                                      where Region 5 performed the most recent enforcement activity. We
                                      selected the additional facilities to ensure an adequate review of
                                      Region 5 activities. However, we later deleted three cases because
                                      they were not applicable to the objectives of our review.2

                                      During the audit, IEPA and Region 5 corrected several RCRIS
                                      inaccuracies that we identified. Chapter 3 contains information
                                      regarding the types of problems identified and the corrective actions
                                      taken.




         2
            One case was a review of documentation and subsequent referral for Comprehensive Environmental Response,
Compensation, and Liability Act violations. The second case showed a pending violation for a multi-media inspection, but no
RCRA violations were identified. The third case was a joint inspection where Region 5 officials accompanied IEPA on an
inspection.

                                                            16
                                                                                                      Report No. 9100110
                                                 Identification and Enforcement of
                                                 RCRA Significant Non-Compliers

                                                                       Exhibit 1
                                                                      Page 3 of 3

PRIOR AUDIT
COVERAGE      In March 1998, the OIG issued a report regarding EPA Region 10 and
              the Washington Department of Ecology’s SNC Enforcement (Report
              No. 8100093). The audit found that Region 10 needed to: (1) ensure
              that the State’s enforcement program is consistent with EPA policy
              and (2) include deadlines in informal enforcement actions. The audit
              also found that the State did not always: (1) document return to
              compliance or (2) perform follow-up inspections, where appropriate.
              The OIG is currently performing similar work in Regions 1 and 3
              which also identified problems with SNC enforcement.




                               17
                                                                Report No. 9100110
                                                            Identification and Enforcement of
                                                            RCRA Significant Non-Compliers

                                                                                Appendix 1
                                                                                Page 1 of 14

             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                               REGION 5

                                  MAR 0 3 1999

MEMORANDUM

SUBJECT:     Draft Report for the Audit of Resource Conservation and
               Recovery Act Programs

FROM:        David A. Ullrich
             Acting Regional Administrator

TO:          Anthony C. Carrollo
             Divisional Inspector General for Audits
             Northern Division

Thank you for the opportunity to review and respond to the draft
report, attached to your January 28, 1999 memorandum on the same
subject.

The Waste Pesticides and Toxics Division (WPTD) reviewed the
report and acknowledges the conclusion on page 7 that Region 5
“generally identified and performed appropriate enforcement of
significant non-compliers, thereby effectively reducing risks to
human health and the environment.” WPTD also acknowledges that
continuous improvement is essential in carrying out established
procedures for data entry to ensure adequate controls over
Regional and State RCRIS input. To that end, I have attached a
copy of our draft RCRIS Action Plan for FY99.

If you wish to discuss these comments or any other aspect of our
review of the draft report, please contact me at your earliest
convenience.



                                      David A. Ullrich

Attachment




             Note: The original response was signed by David A. Ullrich.




                                         18
                                                                           Report No. 9100110
                                                        Identification and Enforcement of
                                                        RCRA Significant Non-Compliers

                                                                             Appendix 1
                                                                             Page 2 of 14


                       U.S. EPA REGION 5
                  RCRIS ACTION PLAN FOR FY99


Category 1: One-time basic RCRIS maintenance actions.

Desired Results: These activities will enhance the accuracy and completeness of
                 our RCRIS records for tracking programmatic activities and for
                 Internet presentation of data records to the regulated community
                 and the public.


Category 2: Ongoing basic RCRIS review and maintenance actions.

Desired Results: These activities will ensure that RCRA program offices and
                 States are reviewing and updating specific RCRIS records on a
                 periodic basis throughout the year.



Category 3: Transitional activities for moving RCRIS to the new web based RCRA
            INFO platform and development of our revised data management
            tracking and reports menu system.

Desired Results: Provide streamlined data entry and retrievals of detailed
                  programmatic activities for both federal and State RCRA
                  programs. Easy access and sharing of data are keys to
                  maintaining a strong working relationship with our State
                   partners.




                                                                         1




                                       19
                                                                       Report No. 9100110
                                                                 Identification and Enforcement of
                                                                 RCRA Significant Non-Compliers

                                                                                        Appendix 1
                                                                                        Page 3 of 14

                               U.S. EPA REGION 5
                          RCRIS ACTION PLAN FOR FY99

Category 1: One-time basic RCRIS maintenance actions.

Desired Results: These activities will enhance the accuracy and completeness of our RCRIS
                 records for tracking programmatic activities and for Internet
                 presentation of data records to the regulated community and the public.


               Key Activity                 Responsible     Due              Status
                                            Individual(s)   Date
   A. Review and assess the accuracy of     CA Program               This will be a
   all CA210 event records (referred to a   Staff and                coordinated effort
   non-RCRA authority, 96 total for         RCRIS Module             between IMS and our
   Region 5) and all permit module          Specialist               CA program sections.
   process file “SF” operating status                                RCRIS reports pulled
   codes (referred to CERCLA or other                                by IMS staff will be
   authority, 32 total for Region 5).                                reviewed by CA
   Necessary data changes will be                                    program staff. Section
   forwarded to the appropriate RCRIS                                chiefs are scheduled to
   Module Specialist for follow-up data                              meet 12.11.98 to
   entry.                                                            finalize actions.


   B. Review and assess the accuracy of     CA Program               This will be a
   all CA999 event records (CA process      Staff and                coordinated effort
   terminated, 122 total for Region 5).     RCRIS Module             between IMS and our
   Necessary data changes will be           Specialist               CA program sections.
   forwarded to the RCRIS CA Module                                  RCRIS reports pulled
   Specialist for follow-up data entry.                              by IMS staff will be
                                                                     reviewed by CA
                                                                     program staff. Section
                                                                     chiefs are scheduled to
                                                                     meet 12.11.98 to
                                                                     finalize actions.



                                                                                            2




                                               20
                                                                                  Report No. 9100110
                                                              Identification and Enforcement of
                                                              RCRA Significant Non-Compliers

                                                                                       Appendix 1
                                                                                       Page 4 of 14


            Key Activity                Responsible      Due              Status
                                        Individual(s)    Date

C. Prepare and send letters to Illinois RCRIS IMS       01.31.99 Illinois and Wisconsin
and Wisconsin regarding current         State                    may be ready to take on
RCRIS IOR table settings for            Coordinators             CA data management
corrective action, procedures used for                           activities later this
CA data entry, and ongoing universe                              year. The individual
maintenance in RCRIS. Also, conduct                              State Coordinators will
follow-up discussions with all States                            prepare and send letters
to remind them of the availability of                            to these two States.
RCRIS fields to record voluntary State                           State Coordinators will
CA activities and provided additional                            also work with CA
CA data entry training for State                                 program staff to
offices as needed.                                               coordinate and plan
                                                                 any additional training
                                                                 need by our States.


D. Review and update RCRIS SNC         RCRIS Module     1.31.99 This project was
indicators for EPA lead evaluations    Specialist and           discussed with all
and enforcement actions. Coordinate    Enforcement              States at the November
review and updates for State lead      Program                  RCRIS/BRS
evaluations and enforcement actions    RCRIS                    conference in Chicago.
with individual State offices.         Specialist               Follow-up coordination
                                                                will be performed until
                                                                this project is
                                                                completed.




                                                                                   3




                                          21
                                                                               Report No. 9100110
                                                                  Identification and Enforcement of
                                                                  RCRA Significant Non-Compliers

                                                                                           Appendix 1
                                                                                           Page 5 of 14


             Key Activity                 Responsible      Due                Status
                                          Individual(s)    Date

E. Review all final closure records in    IMS State       3.15.99    IMS State Coordinators
RCRIS to ensure that all closed           Coordinators               will review
process units have up-to-date process                                comprehensive permit
status codes and complete closure                                    module reports to
event records. Document any needed                                   identify questionable
adjustments in process status codes or                               records. Necessary
event records, as agreed on with State                               updates will be made
offices, for data entry into RCRIS.                                  after discussions with
                                                                     State offices. Accurate
                                                                     closure records will
                                                                     ensure that RCRIS
                                                                     TSD universes for
                                                                     permitting,
                                                                     enforcement and CA
                                                                     are correct.

F. FII handler information reviews
and data updates.

G. Establish an updated record of         RCRIS Team      4.1.99     Updates will ensure
locational reference tables used in our                              that all significant
R5 EJ GIS mapping system. Identify                                   facilities are presented
any current locations data gaps in                                   in EJ GIS mapping
these tables and update as needed.                                   products.
Facilities which are currently not
included, but having recent
enforcement/CA/BRS activities will
be added.

H. Other special maintenance projects     RCRIS Team      Ongoing
as they are brought to the attention of
the RCRIS team. A good example of
this was the recent Sector Facility
Indexing Project launched by the
OECA office in headquarters.

                                                                                       4




                                             22
                                                                                   Report No. 9100110
                                                                     Identification and Enforcement of
                                                                     RCRA Significant Non-Compliers

                                                                                             Appendix 1
                                                                                             Page 6 of 14


                                U.S. EPA REGION 5
                           RCRIS ACTION PLAN FOR FY99

Category 2: Ongoing basic RCRIS review and maintenance actions.

Desired Results:            These activities will ensure that RCRA program offices and States are
                   involved in reviewing and updating specific RCRIS records on a periodic
                   basis throughout the year.


               Key Activity                 Responsible       Due               Status
                                            Individual(s)     Date

   A. Run selected RCRIS reports           RCRIS Module     As          Permitting and CA
   showing recent programmatic             Specialists  shown on        program PAR reports,
   activities and data assessment                           the         RECAP enforcement
   reports for distribute to program                     attached       activity reports, other
   office contacts for review and                         reports       specific programmatic
   feedback.                                            schedule.       activities tracking
                                                                        reports, and data
                                                                        assessment reports will
                                                                        be distributed.

   B. Perform monthly RCRIS                RCRIS DBA        Monthly     Ongoing
   databases merges and                                     as shown
   programmatic universe calculations                       in the
   to maintain current RCRIS records                        attached
   in the Merge and National                                merge
   Oversight RCRIS databases.                               cycle
                                                            calendar

   C. Coordinate data entry into           RCRIS Module Ongoing         Ongoing
   appropriate RCRIS databases as          Specialists
   updates are received from program
   offices and the regulated
   community.




                                                                                         5




                                                23
                                                                                      Report No. 9100110
                                                               Identification and Enforcement of
                                                               RCRA Significant Non-Compliers

                                                                                      Appendix 1
                                                                                      Page 7 of 14


            Key Activity               Responsible      Due              Status
                                       Individual(s)    Date

D. Run new RCRIS data                  RCRIS Team      Ongoing As new reports become
assessment reports as they are                                 available additional data
developed and become available to                              assessments will be
review CM&E, permitting and CA                                 performed.
data records.


E. Hold conference calls with State    IMS State       Ongoing Visits to State offices
contacts twice a month to review       Coordinators            and necessary training
current HW data management                                     will vary from State to
issues. Plan visits to State offices                           State.
and necessary training.


F. Enter CA725 and CA750               RCRIS CA        Ongoing Ongoing.
environmental indicator event          Module
records and status codes as they are   Specialist
received from program staff.




                                                                                  6




                                           24
                                                                              Report No. 9100110
                                                                     Identification and Enforcement of
                                                                     RCRA Significant Non-Compliers

                                                                                              Appendix 1
                                                                                              Page 8 of 14

                                U.S. EPA REGION 5
                           RCRIS ACTION PLAN FOR FY99

Category 3: Transitional activities for moving RCRIS to the new web based RCRA INFO
            platform and development of our revised data management tracking and reports
            menu system.

Desired Results:             Provide streamlined data entry and retrievals of detailed programmatic
                   activities for both federal and State RCRA programs. Easy access and
                   sharing of data are keys to maintaining a strong working relationship with
                   our State partners.



          Key Activity                Responsible        Due                 Status
                                      Individual(s)      Date

 A. Host a meeting with Region        RCRIS Team           -      Completed on November 16
 5 States to review and discuss                                   & 17, 1998.
 the WIN business systems
 design team high level design
 proposal for an alternative
 platform for RCRIS and to plan
 our regional transition
 activities.


 B. Integrate the new GPRA            RCRIS Team           -      Completed November 16,
 baseline universes for CA,                                       1998.
 permitting and post-closure into
 the Region 5 RCRIS reports
 and menu system to facilitate
 report retrievals for these new
 universes.




                                                                                          7




                                                25
                                                                                       Report No. 9100110
                                                                Identification and Enforcement of
                                                                RCRA Significant Non-Compliers

                                                                                       Appendix 1
                                                                                       Page 9 of 14



          Key Activity              Responsible      Due                Status
                                    Individual(s)    Date

C. Facilitate the development       RCRIS Team      Ongoing Coordination with permitting,
of RCRA INFO management                                     enforcement, and CA
tracking reports and revisions to                           program managers is
existing RCRIS reports for R5                               ongoing.
and State RCRA program
offices.


D. Plan and prepare follow-up       RCRIS Team               We are working closely with
actions for ensuring that all                                the business systems design
RCRA INFO CA events are                                      team on this issue.
linked to correct areas and
authorities before conversion.


E. Revise R5 RCRIS reports          RCRIS Module Ongoing Ongoing.
and menu system as necessary        Specialists/
when national changes/updates       RCRIS Team
are completed.


F. Address training needs of R5     RCRIS Team      Ongoing Ongoing
and State personnel on Oracle
and other software to be used in
support of RCRA INFO.




                                                                                   8




                                            26
                                                                                 Report No. 9100110
     Identification and Enforcement of
     RCRA Significant Non-Compliers

                        Appendix 1
                       Page 10 of 14




27
                    Report No. 9100110
     Identification and Enforcement of
     RCRA Significant Non-Compliers

                        Appendix 1
                       Page 11 of 14




28
                    Report No. 9100110
     Identification and Enforcement of
     RCRA Significant Non-Compliers

                        Appendix 1
                       Page 12 of 14




29
                    Report No. 9100110
     Identification and Enforcement of
     RCRA Significant Non-Compliers

                        Appendix 1
                       Page 13 of 14




30
                    Report No. 9100110
     Identification and Enforcement of
     RCRA Significant Non-Compliers

                        Appendix 1
                       Page 14 of 14




31
                    Report No. 9100110
                                                                     Identification and Enforcement of
                                                                     RCRA Significant Non-Compliers

                                                                                             Appendix 2
                                                                                             Page 1 of 1




March 10, 1999


Mr. David Ullrich, Acting Regional Administrator
United States Environmental Protection Agency (Region 5)
77 West Jackson Boulevard
Chicago, Illinois 60604-3590

Dear Mr. Ullrich:
With this letter, the Illinois EPA is transmitting comments in response to the Draft Report for the
Audit of Resource Conservation and Recovery Act Programs. The report, dated January 28,
1999, is based on an August 1998 audit of Region 5's and Illinois EPA's RCRA compliance
programs. The audit was conducted by Region 5's Office of Inspector General (OIG).

I have been informed by Illinois EPA personnel directly involved in the audit process that OIG
personnel that conducted the audit should be commended for the thorough and professional manner
in which the audit was performed. Several valuable recommendations have been identified in the
draft report and, as you will see in our comments, the Illinois EPA has acted on all the
recommendations identified through the revision of our Compliance Assistance Survey (CAS)
procedures (see second enclosure).

Please do not hesitate to contact me if you have any questions or concerns relating to the
enclosed comments.

Sincerely,


Thomas V. Skinner
Director

ENCLOSURES

cc:      Howard Levin, Audit Liaison (Region 5)
                                        Printed on Recycled Paper


 Note: The original response was signed by Thomas V. Skinner and enclosures are not included.


                                                  32
                                                                                       Report No. 9100110
                                                             Identification and Enforcement of
                                                             RCRA Significant Non-Compliers

                                                                                 Appendix 3
                                                                                 Page 1 of 1

                                     DISTRIBUTION

Region 5

Regional Administrator (R–19J)
Audit Followup Coordinator (MFA-10J)
Library (PL-12J)

Headquarters

Assistant Administrator for Enforcement and Compliance Assurance (2201)
Associate Administrator for Regional Operations (1501)
Agency Followup Official (3101)
 Attn: Assistant Administrator, OARM
Agency Followup Coordinator (3304)
 Attn: Director, RMD
Headquarters Library (3404)

Office of Inspector General

Inspector General (2410)
GAO - Issue Area Planner




                                            33
                                                                            Report No. 9100110
